            BULK FUEL RELATED PROJECTS AT
     NAVAL STATION ROTA AND MORON AIR BASE, SPAIN

Report No. D-2001-104                      April 19, 2001




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
EUCOM                 European Command
IPRB                  Installation Planning and Review Board
JPO                   Joint Petroleum Office
MILCON                Military Construction
MR&E                  Maintenance, Repair, and Environmental
USAFE                 U.S. Air Force Europe
                        Office of the Inspector General, DoD
Report No. D-2001-104                                                       April 19, 2001
   (Project No. D1999CG-0088.002)

                        Bulk Fuel Related Projects at
                Naval Station Rota and Moron Air Base, Spain
                                    Executive Summary
Introduction. This report is one in a series that addresses the accuracy and reliability of
maintenance, repair, environmental, and construction requirements for bulk fuel storage
and delivery systems infrastructure. The Defense Logistics Agency, Defense Energy
Support Center, provides fuel to DoD customers and is responsible for budgeting and
funding military construction and maintenance and repair projects, including
environmental projects, at all DoD fuel terminals worldwide.

Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
maintenance, repair, environmental, and construction requirements for bulk fuel storage
and delivery systems infrastructure. Specifically, this audit evaluated maintenance, repair,
and environmental and military construction requirements for bulk fuel storage and
delivery systems infrastructure projects at two locations in Spain. We also reviewed the
management control program as it related to the bulk fuel infrastructure requirement
validation process.

Results. Maintenance, repair, and environmental projects valued at $21.2 million at
Naval Station Rota and Moron Air Base, Spain, were adequately supported. Military
construction projects at Naval Station Rota for $92 million were supported as strategic en
route requirements. However, fuel-related military construction project requirements for
Moron Air Base were inaccurate. The Defense Logistics Agency approved and funded a
$14 million fuel-related military construction project at Moron Air Base that was not
necessary to support strategic en route requirements. In addition, unless the U.S.
European Command establishes and implements procedures to review, validate, and
prioritize project requirements, the Defense Logistics Agency cannot maximize the use of
available funds to ensure that the highest priority DoD projects successfully compete for
funding. For details of the audit results, see the Finding section of the report. The
management controls that we reviewed were not effective in that a material management
control weakness was identified. See Appendix A for details on the management control
program.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
European Command, review and coordinate fuel-related military construction
requirements at Naval Station Rota and Moron Air Base and validate the requirements in
accordance with DoD 4140.25-M, “DoD Management of Bulk Petroleum Products,
Natural Gas, and Coal,” June 1994.

Management Comments. The Commander in Chief, U.S. European Command,
provided comments and concurred with the recommendation. The European Command
stated that they have already validated the Naval Station Rota and the Moron Air Base
requirements for the MILCON projects at a recent meeting of the European Enroute
Infrastructure Steering Committee. However, the European Command took exception to
our classification of the Moron Air Base projects an “inaccurate.” The European
Command stated that the projects at Moron Air Base not only support strategic en route
requirements, but also provide vital support for operational and contingency plan
requirements. The European Command stated that the issue with Moron Air Base is the
convoluted nature of the requirements when multiple CINCs and components are
involved. In the case where more than one CINC is involved in a project, a determination
should be made as to what office is the ultimate consolidator of requirements to ensure
duplication or waste is avoided. A discussion of management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.

Audit Response. Management comments were fully responsive to the recommendation.
Although the European Command could not provide documentation to support the
requirements at Moron Air Base during our review, we have no issue that the projects are
not needed. Our issue is that the projects were improperly classified as having
requirements to support strategic en route airlift, thus obtaining an inaccurate high priority
for very limited Defense Logistics Agency fuel related infrastructure military construction
funding. As for the “ultimate consolidator,” Joint Pub 4-03, “Joint Bulk Petroleum
Doctrine,” states that the geographic Combatant Command has the predominate fuel
responsibility within the theater.




                                              ii
Table of Contents

Executive Summary                              i


Introduction
     Background                               1
     Objectives                               2

Finding
     Fuel Related Projects in Spain            3

Appendixes
     A. Audit Process
          Scope                                9
          Methodology                          9
          Management Control Program Review   10
          Prior Coverage                      11
     B. Report Distribution                   12

Management Comments
     U.S. European Command                    15
Background
    This report is one in a series being issued by the Inspector General, DoD,
    addressing DoD maintenance, repair, and environmental (MR&E), and military
    construction (MILCON) requirements for bulk fuel storage and delivery systems
    infrastructure (storage tanks, pipelines, dispensing facilities, hydrants, etc.). The
    Defense Logistics Agency (DLA), Defense Energy Support Center (DESC), is
    responsible for budgeting and funding MR&E and MILCON for DoD fuel
    terminals worldwide.
    In 1991, DoD, Program Budget Decision 735 authorized the transfer of MILCON
    funding authority to DLA for fuel-related infrastructure on military installations.
    Actual transfer of the funding responsibilities, however, was managed in two
    phases. The period from 1993 through 1996 was characterized by very low fuel-
    related MILCON expenditures. During that period, when the Services would
    have historically expended an average of $66 million per year, DLA only
    averaged $17 million. Low funding levels over an extended period precipitated
    infrastructure deterioration to the point where environmental issues became a
    concern. Additionally, the United States changed from a forward-deployed force
    to one based largely in the continental United States. Therefore, an enhanced en
    route refueling infrastructure to support worldwide deployment of U.S. Forces
    was needed to meet timeline requirements for a two major theatre war strategy.
    Consequently, there was a growing demand for MILCON and MR&E projects
    supporting fuel infrastructure.

    In 1997, the Office of the Deputy Under Secretary of Defense (Logistics)
    completed a study on DoD fuels MILCON funding. The study identified 114
    MILCON projects totaling $1.5 billion in fuel-related MILCON requirements to
    meet environmental, operational, and strategic planning objectives for the
    proposed Future Years Defense Program (FYs 1999 through 2003). During
    FY 1998 budget considerations, the transfer of MILCON responsibility to DLA
    created a funding issue because the Defense budget did not provide for increased
    funding for DLA. For FY 2000, DLA funded and approved $101.2 million for
    five projects. For the FY 2001 President’s Budget to Congress, DLA
    programmed 14 projects with an estimated cost of $168 million.

    The DESC is responsible for DoD fuel inventory management, including fuel
    procurement and sales, and environmental oversight. Fuel-related infrastructure
    requirements may be funded by DLA from two different funding sources.
    Maintenance, repair, and environmental projects are funded through the Defense
    Working Capital Fund – a revolving fund that is continually replenished by a
    surcharge added by DLA to the sale price of fuel. Renovations and major
    construction projects are funded from the DLA allocation of MILCON
    appropriations.




                                          1
Objectives
     Our overall objective was to evaluate the accuracy and reliability of DoD MR&E
     and MILCON requirements for bulk fuel storage and delivery systems
     infrastructure. Specifically, this audit evaluated requirements for MR&E and
     MILCON bulk fuel storage and related delivery systems infrastructure projects at
     Naval Station Rota and Moron Air Base, Spain. We also reviewed the adequacy
     of the management control program as it applied to the audit objectives. See
     Appendix A for a discussion of the audit scope and methodology and a discussion
     of the management control program.



Supported MR&E and MILCON Projects
     The requirements for 44 MR&E projects valued at $21.2 million at Naval Station
     Rota and 14 MR&E projects valued at $2.7 million at Moron Air Base were
     adequately supported. Military construction projects at Naval Station Rota for
     $92 million were supported as strategic en route MILCON requirements.




                                        2
           Fuel Related Projects in Spain
           Fuel-related military construction project requirements for Moron Air
           Base were inaccurate. The requirements were inaccurate because the U.S.
           European Command (EUCOM):

               •   did not review and coordinate joint MILCON requirements for
                   Spain, and
               •   did not validate and prioritize projects as required by DoD
                   guidance.
           As a result, DLA approved and funded a $14 million fuel-related
           MILCON project at Moron Air Base that was not necessary to support
           strategic en route requirements. In addition, unless EUCOM establishes
           and implements procedures to review, validate, and prioritize project
           requirements, DLA cannot maximize the use of available funds to ensure
           that the highest priority DoD projects successfully compete for funding.


Policy Guidance
    DoD guidance prescribes policy for bulk fuel storage and delivery systems
    infrastructure, documents the processes, and assigns responsibilities for managing
    the infrastructure.

    DoD Directive 4140.25, “DoD Management Policy for Energy Commodities
    and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes DoD
    policy for energy and related programs (for example, petroleum, natural gas, coal,
    and propellants). The Directive states that the programs shall support DoD
    peacetime and wartime missions, and permit successful and efficient deployment
    and employment of forces. The Directive also states that DoD Components shall
    minimize inventories consistent with peacetime and contingency needs.

    DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural Gas,
    and Coal,” June 1994. The manual implements DoD Directive 4140.25 and
    prescribes policy guidance, supply operating procedures, and reporting instructions.
    The manual assigns functional responsibilities for the integrated management of
    bulk fuel facilities and establishes procedures for MILCON and MR&E project
    review, validation, and prioritization.

    Joint Pub 4-03, “Joint Bulk Petroleum Doctrine,” July 25, 1995. The joint
    publication establishes doctrine and sets forth principles for bulk petroleum
    support of U.S. joint military operations. The publication aids commanders of
    Combatant Commands and applies when, among other operations, the forces of
    one Service support the forces of another. This publication takes precedence over
    Service directives for activities of joint forces.




                                         3
Bulk Fuel MILCON Projects in Southern Spain
    Naval Station Rota and Moron Air Base are both located in southern Spain.
    Naval Station Rota, located on the Atlantic Ocean near the Straits of Gibraltar,
    serves the naval forces operating in the region and accommodates a limited
    amount of airlift aircraft refueling with five existing hydrants and a fleet of
    refueling trucks. Moron Air Base is a limited operations base that has a large
    aging refueling infrastructure. Moron Air Base has historically served as a
    strategic staging base to support United States and Allied aerospace power
    throughout Europe, Africa, and Southwest Asia.

    The bulk fuel related MILCON projects planned for Naval Station Rota and
    Moron Air Base are summarized in the following table.


                        Fuel Related MILCON Projects in Spain
                                     ($ in millions)
     FY     Project No         Project Description                               Amount
     Naval Station Rota
     02     P-655              Construct hydrant fuel system (Phase I)             $ 25.0
     03     P-660              Construct hydrant fuel system (Phase II)              13.0
      Subtotal (Rota, for DLA Funding)                                               38.0
     02     P-656              Airfield improvements (Phase I)                       35.0
     03     P-661              Airfield improvements (Phase II)                      13.8
     01     P-657              Flightline replacement facilities                      5.3
      Subtotal (Rota, for Air Force Funding)                                         54.1
        Subtotal (Rota)                                                              92.1
     Moron Air Base
     97     QUUG97-3000E Replace hydrant fuel system (Phase I)                       13.0
     00     QUUG97-3000E Replace hydrant fuel system (Phase II)                      14.0
      Subtotal (Moron, for DLA Funding)                                              27.0
        Total                                                                      $119.1

    Naval Station Rota Bulk Fuel MILCON Projects. There were five bulk fuel
    related MILCON projects to construct a NATO standard design Type III hydrant
    fuel system over a multiyear period. The projects included pumphouses, operating
    tanks, pantographs, hydrants, and associated support facilities for “ . . . strategic air
    mobility plans for worldwide en route infrastructure capabilities . . . [for]
    additional wide body airlift aircraft servicing capacity needs for the southern
    European region.” Projects P-655 and P-660 met the criteria for DLA funding and
    because of the strategic en route justification, received the highest ranking for that
    funding. Projects P-656, P-657, and P-661 were for the relocation of flight line
    facilities and airfield improvements. Those three projects did not meet criteria for
    DLA funding and were to be funded by the Air Force. When combined with the
    DLA projects, the Air Force funded MILCON, estimated at $54.1 million, would
    bring the total investment at Naval Station Rota to $92.1 million.


                                           4
    Moron Air Base MILCON Projects. Project QUUG97-3000E, “Replace
    Hydrant Fuel System,” was divided into two phases. Phase I, hydrants for 16
    wide body aircraft refueling/parking locations, 2 storage tanks, and associated
    infrastructure is scheduled to be completed in April 2001, at an estimated cost of
    $13 million. Phase II, hydrants for an additional 21 wide body aircraft
    refueling/parking locations, 2 storage tanks, and associated infrastructure was
    programmed for $15.2 million in FY 2000; however, Phase II was delayed until
    the completion of Phase I and the estimated costs were reduced to $14 million.
    The U.S. Air Force Europe (USAFE) initially identified the projects in 1993. At
    that time, USAFE maintained that the 1956 type II refueling system was at the
    end of its useful life, deteriorating rapidly, and posed safety and environmental
    hazards. Further, the new standard design was needed to meet operational
    mission requirements. USAFE later revised the project documentation.
    Specifically, the February 1999, DD Form 1391 requirement justification stated “
    . . . the system is required to rapidly refuel wide-body aircraft in support of U.S.
    contingency plans and other crises.”



MILCON Project Review, Validation, and Prioritization
    EUCOM Responsibilities. The DoD 4140.25-M states that the geographic
    Combatant Command JPO (specifically the EUCOM JPO) is responsible for
    reviewing and validating fuel infrastructure MILCON requests, establishing
    project priorities, and submitting the requirements to DESC for review and overall
    DoD prioritization for DLA funding. However, EUCOM did not review and
    validate the MILCON requirements against operational or contingency plans, and
    could not provide documentation to support the strategic en route requirement for
    the fuel-related MILCON project in southern Spain.

    The Combatant Command Joint Petroleum Offices (JPOs) and the Service control
    points are responsible for MILCON and MR&E project review, validation, and
    for developing consolidated project priority lists in accordance with DoD
    4140.25-M. The JPOs validate and prioritize overseas projects. The JPOs and the
    Service control points forward candidate projects and consolidated project priority
    lists to DESC for funding review and approval.

    The geographic Combatant Commander has predominant fuel responsibility
    within a theater and is responsible to ensure that fuel support is provided to
    combat forces to accomplish mission requirements from the National Command
    Authorities. The Combatant Commands must coordinate fuel and fuel
    infrastructure MILCON and MR&E requirements. The EUCOM JPO is not only
    responsible for fuel requirements in support of his own command, but is also
    responsible for fuel support to other Combatant Commands. The EUCOM JPO is
    to provide en route support for other combat missions transferring through the
    EUCOM geographic area of responsibility. Additionally, all Combatant
    Commands must plan and coordinate the receipt, storage, and distribution of
    petroleum products in their respective theaters with DLA.




                                          5
Strategic En Route Infrastructure Requirements
    Mobility Requirements Study. In April 28, 1994, the Deputy Secretary of
    Defense directed the Chairman of the Joint Chiefs of Staff to conduct an updated
    Mobility Requirements Study. The new study, known as the Mobility
    Requirements Study Bottom Up Review Update, established strategic mobility
    requirements for conventional war scenarios. The study also provides inter-
    theater strategic mobility airlift requirements and identifies the amount of airlift
    capacity required for various operational plans. The Joint Chiefs of Staff, through
    the Defense Planning Guidance of 1997, required that the strategic en route airlift
    through the European and Pacific areas of responsibility be given the highest
    priority in order to carry out the airlift requirements established by the study.



Fuel MILCON Funding Process
    DoD Directive 4140.25 provides the Director, DLA, with management
    responsibility for fuel, including planning, programming, and budgeting for new
    permanent storage and distribution facilities. DLA, through DESC, must
    coordinate those functions with the Services and Combatant Commanders through
    the Installation Planning and Review Board (IPRB).

    Overall prioritization of worldwide fuel related MILCON projects is
    accomplished annually when the Combatant Commands, the Services, the Joint
    Staff, and DESC meet as the IPRB. The IPRB considers such factors as the
    facility type and condition, environmental compliance, mission criticality and
    type, and command priority. Because of the significant backlog in funding fuel
    related MILCON projects, proper identification and weighting of those factors by
    the IPRB, for each project, is crucial to ensuring the successful revitalization of
    the DoD fuel infrastructure.

    In prioritizing projects for funding in FYs 2000 through 2004, the IPRB provided
    highest priority to projects that had the highest impact on peacetime and wartime
    operations; those projects that were necessary to meet strategic en route mission
    requirements.

    DLA funded the Phase I upgrade at Moron Air Base during FY 1997. Phase II at
    Moron Air Base was approved by the IPRB for FY 2000 funding. The IPRB
    approved Phase I and II at Naval Station Rota for funding during FYs 2002 and
    2003, respectively. The IPRB assigned high priority to those three projects
    because of their strategic en route airlift requirements justification.

    EUCOM could not provide any support for specific strategic en route airlift
    requirements. However, data from the U.S. Transportation Command and the Air
    Mobility Command supported strategic en route airlift requirements for the
    projects at Naval Station Rota and 16 of the 37 large aircraft refueling/parking
    locations, hydrants, and related infrastructure at Moron Air Base. We could not
    find any support for strategic en route airlift requirements for the remaining 21
    large aircraft refueling/parking locations, hydrants, and related infrastructure at

                                         6
    Moron Air Base, project number QUUG97-3000E, “Replace Hydrant Fuel
    System (Phase II),” for $14 million. While all existing infrastructure may need to
    be upgraded for normal operations, other projects on the IPRB approved project
    list may have a greater “ . . . impact on peacetime and wartime operations . . . ,”
    and should be considered for funding in the order that their priority dictates. DLA
    cannot maximize the use of available funds to ensure that the highest priority
    DoD projects successfully compete for funding when project justification
    requirements are not accurately documented.



Management Comments on the Finding and Audit Response
    Management Comments on the MILCON Requirements at Moron Air Base.
    The EUCOM took exception to the finding that the requirements at Moron Air
    Base were inaccurate. EUCOM stated that the projects at Moron Air Base not
    only support strategic en route requirements, but also provide vital support for
    operational and contingency plan requirements. EUCOM further recommended
    that the following comments be included in the report.
               Fuel-related military construction project requirements for Moron Air
               Base were determined to be valid. Although not all projects were
               required to support strategic enroute requirements identified in MRS
               BURU, the remaining projects provide vital logistics support to tanker
               and bomber operations for contingency and operational plans and are
               thus justified. However, not all documentation justifying these projects
               was readily available in a central location.

    Audit Response. We still maintain that the requirements, as stated for the
    projects at Moron Air base, as submitted to the IPRB, and as approved by the
    IPRB, are inaccurate. The projects were approved by the IPRB and sent to DLA
    for funding based on strategic en route airlift requirements. The EUCOM
    comments confirm that not all projects were needed for those requirements.
    Therefore, the projects, although they may be required, were improperly classified
    and ranked; thus resulting in circumventing the use of limited DLA fuels
    MILCON funding for the highest priority projects.



Recommendation, Management Comments, and Audit
Response
    We recommend that the Commander in Chief, U.S. European Command,
    review, validate, and coordinate requirements for the fuel-related military
    construction projects at Naval Station Rota and Moron Air Base in
    accordance with DoD 4140.25-M.

    Management Comments. The U.S. European Command concurred with the
    recommendation and stated that they have already validated the Naval Station
    Rota and the Moron Air Base requirements for the MILCON projects at a recent
    meeting of the European Enroute Infrastructure Steering Committee. However,

                                             7
EUCOM took exception to some of the discussion supporting the
recommendation and provided wording for a different recommendation. EUCOM
stated that the issue with Moron Air Base, and possibly other en route bases, is the
convoluted nature of the requirements when multiple CINCs and components are
involved. Therefore EUCOM suggested the following reword of the
recommendation.
           We recommend the representatives at the June 2001 Joint Petroleum
           Working Group/Installation Program Review Board (JPWG/IPRB)
           meetings review the MILCON validation process to ensure sufficient
           management control exists to allow maximization of available funding
           to meet highest priority DoD needs. In the case where more than one
           CINC is involved in a project, a determination should be made as to
           what office is the ultimate consolidator of requirements to ensure
           duplication or waste is avoided.

Audit Response. Management comments were fully responsive to the
recommendation. Further, we totally agree that the requirements and the
documentation supporting the MILCON projects at the Naval Station Rota and
the Moron Air Base were convoluted. However, Joint Pub 4-03 already
establishes that the geographic Combatant Commanders are responsible to ensure
that fuel support is provided to combat forces. Further, the geographic Combatant
Commander has predominant fuel responsibility within a theater and must
coordinate those fuel and fuel infrastructure requirements with DESC and DLA as
well as with applicable host nations. Therefore, all fuel and fuel infrastructure
requirements within the geographic area of responsibility of EUCOM must be
coordinated with the EUCOM JPO so that he can review, validate, and prioritize
the entire EUCOM consolidated fuel related project list to DESC.




                                        8
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DoD guidance and conducted on-site visits to
    assess the implementation of the guidance. We reviewed supporting
    documentation used for active or planned MR&E and MILCON projects at Naval
    Station Rota and Moron Air Base, Spain, as shown in the following chart.

                               Number
             Location          Projects            Type of Project              Value
        Naval Station Rota        44      M&E projects                          $ 21.2
        Naval Station Rota         5      MILCON projects                         92.1
        Moron Air Base            14      M&E projects                             2.7
        Moron Air Base             2      MILCON projects                         27.0
         Total                    65                                            $143.0

    Additionally, we interviewed cognizant management officials and physically
    toured the bulk fuel infrastructure project sites.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal(s) and performance measures.

              FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains U.S.
              qualitative superiority in key warfighting capabilities. Transform the force
              by exploiting the Revolution in Military Affairs, and reengineer the
              Department to achieve a 21st century infrastructure. (00-DoD-2). FY
              2000 Subordinate Performance Goal 2.3: Streamline the DoD
              infrastructure by redesigning the Department’s support structure and
              pursuing business practice reforms. (00-DoD- 2.3) FY 2000
              Performance Measure 2.3.1: Percentage of DoD budget spent on
              infrastructure. (00-DoD-2.3.1).
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from March 2000 through December 2000, in accordance with

                                           9
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of EUCOM management controls over MR&E and MILCON
    requirements for bulk fuel infrastructure projects. Specifically, we reviewed
    management controls over the review and validation process for MR&E and bulk
    fuel infrastructure MILCON project requirements.

    Adequacy of Management Controls. No management control deficiencies were
    noted from a review of active or planned MR&E projects at Naval Station Rota and
    Moron Air Base. However, we identified a material management control weakness
    for bulk fuel storage MILCON projects in Spain. Management controls at EUCOM
    were not adequate to ensure that fuel-related MILCON projects for en route
    infrastructure military construction in Spain were adequately reviewed, validated,
    and prioritized, as required by the DoD 4140.25-M, “DoD Management of Bulk
    Petroleum Products, Natural Gas, and Coal,” June 1994. The recommendation, if
    implemented, will reemphasize the importance of the existing management controls
    that help ensure efficient use of MILCON resources. A copy of the report will be
    provided to the senior official responsible for management controls in the offices of
    the U.S. European Command.

    Adequacy of Management’s Self-Evaluation. Because we did not identify a
    material management control weakness for MR&E projects, we did not assess
    management’s self-evaluation in that area. For MILCON projects, EUCOM
    officials did not identify an assessable unit for the review, validation, and
    prioritization of fuel-related MILCON projects and, therefore, did not identify or
    report the material management control weakness identified by the audit.




                                        10
Prior Coverage
    Inspector General, DoD, Report No. D-2001-040, “Bulk Fuel Infrastructure
    Maintenance, Repair, and Environmental Project Review Process: Pacific,”
    January 30, 2001.

    Inspector General, DoD, Report No. D-2001-003, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Requirements for Japan,” October 12, 2000.

    Inspector General, DoD, Report No. D-2000-164, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Requirements for Yakima Training Center,
    Washington,” July 20, 2000.




                                      11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Installations)
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Joint Chief of Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Navy Petroleum Office

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, United States Air Forces in Europe

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Transportation Command
  Commander, Air Mobility Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          13
U.S. European Command Comments




                   15
16
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Bobbie Sau Wan
Eric D. Boderious
Joyce S. McCutcheon
